    May 10, 2005




Financial Management
Report on Recording and Accounting
for DoD Contract Financing
Payments
(D-2005-062)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ACO                   Administrative Contracting Office
DCMA                  Defense Contract Management Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
EDA                   Electronic Data Access
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
DoD IG                Department of Defense Inspector General
MOCAS                 Mechanization of Contract Administration Service
OMB                   Office of Management and Budget
PP&E                  Property, Plant, and Equipment
SFFAS                 Statement of Federal Financial Accounting Standard
USD(C/CFO)            Under Secretary of Defense (Comptroller)/Chief Financial Officer
WIP                   Work-in-Process
             Department of Defense Office of the Inspector General
Report No. D-2005-062                                                      May 10, 2005
  (Project No. D2004FJ-0126)

                       Recording and Accounting for DoD
                         Contract Financing Payments

                                Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
are responsible for compiling and presenting contract financing payments on DoD
financial statements. The report discusses the current recording and accounting for
contract financing payments.

Background. Contract financing is an authorized Government payment to a contractor
prior to delivery of supplies or services to the Government. DoD reported $18.9 billion
of outstanding contract financing payments in the Other Assets section and $27.9 billion
of Accounts Payable on the FY 2003 Balance Sheet.

Results. DoD reported $18.9 billion of contract financing payments in the DoD
Financial Statements, but did not properly record the payments in the Balance Sheet.
DoD recorded the contract financing payments as Outstanding Contract Financing
Amounts in the Other Assets account on the Balance Sheet. However, Federal
accounting standards require that the contract financing payments be recorded in an asset
in process account such as Construction Work in Process or Inventory Work in Process.
Additionally, DoD did not report an estimated $3.6 billion of costs incurred by the
contractors, which were not yet paid by the Government and will not be until the
completed asset is delivered. Overall, the Other Assets account was overstated by
$18.9 billion and in-process assets (such as Construction Work in Process and Inventory
Work in Process) were understated by about $22.5 billion on the FY 2003 Consolidated
Balance Sheet. Additionally, the liabilities on the Balance Sheet were understated by
about $3.6 billion. The Under Secretary of Defense (Comptroller)/Chief Financial
Officer needs to issue procedures that would ensure that the presentation of contract
financing payments on the Balance Sheet is in accordance with Federal accounting
standards. (See the Finding section of the report for the detailed recommendations.)

We also reviewed the management control program as it related to presentation of
contract financing payments.

Management Comments and Audit Response. The Deputy Chief Financial Officer,
Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
nonconcurred with the recommendations. She stated that DoD accounting practices and
the DoD Financial Management Regulation policies for recording and accounting for
contract financing payments are compliant with Federal Accounting Standards, and
accurately reflect the legal and financial status of DoD.

She stated that the audit erroneously equates the accounting policies and the DoD
Financial Management Regulation related to progress payments under fixed-price
construction contracts with contract financing payments. She added that the Federal
Acquisition Regulation states that payments made under fixed-price construction
contracts are not financing payments and the failure of the DoD OIG to recognize the
legal distinction results in a misinterpretation and misapplication of Federal acquisition
regulations, Federal accounting standards, and DoD financial management regulations.
She stated that classifying contract financing payments under Other Assets, with full
disclosure in the footnotes as to their nature, provides relevant and reliable information to
decision makers and financial statement users and is fully compliant with Federal
Accounting Standards.

The Deputy General Counsel (Acquisition and Logistics) stated that the title to the
property paid for by the Progress Payment passes to the Government at the time of the
payment. He also stated that the audit erroneously appears to equate progress payments
with partial acceptance of the contracted end item. He added that whether progress
payment inventory is booked as Work-In-Process or as Other assets is a matter of
accounting policy. He stated that booking unpaid progress payments as a liability before
final delivery and acceptance does not accurately reflect either the legal status of the
Government’s contractual obligation or the Department’s financial status, and there is no
liability to pay until delivery and acceptance is made.

We disagree with the comments from the Deputy Chief Financial Officer. We did not
focus on the accounting for fixed-price construction contracts or equate them with
contract financing payments. When we examined the types of assets purchased with
contract financing payments, the associated documentation showed that the items more
appropriately fit the category of Construction Work-in-Process (for Property, Plant, and
Equipment being manufactured) or Inventory Work-in-Process (for inventory being
acquired). It remains our opinion that because the title passes to the Department when
the contract financing payments are made, DoD should present the Property, Plant, and
Equipment and Inventory-related items as such in the financial statements. We also
disagree with the Deputy General Counsel’s comment that there is no liability to pay the
amount retained by the contracting officer at the time of the progress payment until
delivery and acceptance. Statement of Federal Accounting Standard No. 5, “Accounting
for the Liabilities of the Federal Government,” provides three criteria needed to account
for a liability on the financial statements: that an accounting event has occurred, that the
event results in a future payment, and that the payment is measurable and probable. In
our opinion, the payment of the progress payment is an accounting event that creates a
future outflow that is measurable and probable.

The Deputy Chief Financial Officer (Comptroller) stated, in her comments on the report
that the issues identified in the report have remained unresolved for some time. We
agree. We request that the Deputy Chief Financial Officer (Comptroller) reconsider her
position and provide additional comments by June 10, 2005. In the interim, we plan to
concurrently elevate this issue to the Federal Accounting Standards Advisory Board. See
the Finding section for a summary of the management comments and the Management
Comments section for the complete text of those comments.




                                             ii
Table of Contents

Executive Summary                                                              i

Background                                                                     1

Objectives                                                                     2

Finding
     Presentation of Contract Financing on the DoD Consolidated Balance
        Sheet                                                                 3

Appendixes
     A. Scope and Methodology                                                 14
         Management Control Program Review                                    15
         Prior Coverage                                                       16
     B. Office of Management and Budget Decision                              17
     C. Report Distribution                                                   22

Management Comments
     Office of the Under Secretary of Defense (Comptroller)/Chief Financial
        Officer                                                               25
Background
    Contract financing is an authorized Government disbursement of monies to a
    contractor prior to delivery of supplies or services to the Government. Federal
    Acquisition Regulation (FAR) 32.503-5, “Administration of Progress Payments,”
    requires that contract financing be supported by the fair value of the work
    accomplished by the contractor.

    According to the Defense Financial Acquisition Regulation Supplement (DFARS)
    Part 32.001, “Definitions,” contract financing payments are authorized
    Government disbursements of monies to a contractor prior to acceptance of
    supplies or services by the Government. In its financial statements, DoD reported
    three types of contract financing payments: performance-based payments,
    progress-based payments, and commercial financing interim payments.

    Performance-based payments. Performance-based payments are contract
    financing payments made on the basis of performance measured by objective,
    quantifiable methods; accomplishment of defined events; or other quantifiable
    measures of results.

    Progress-based payments. Progress-based payments are contract financing
    payments made on the basis of the contractor cost or percentage of completion
    accomplished. DFARS 232.501-1, “Customary Progress Payment Rates,”
    designates a customary DoD progress payment rate of 80 percent of a contractor’s
    cumulative allowable costs. Contractors provide cost data through progress
    payment invoices that summarize the total allowable costs incurred on a contract
    as of a specified date. The FAR states that progress payments may include
    reasonable and applicable costs consistent with generally accepted accounting
    principles and payments that have been made to subcontractors or suppliers or
    both by some form of payment. Progress payments may not include incurred
    costs by subcontractors or suppliers or costs that would otherwise be capitalized.
    As goods and services are provided, progress payments are liquidated, or
    recouped, based on the progress payment rate established in the contract. When
    progress payments are recouped, DoD pays the remaining amount owed minus the
    prior progress payments.

    Commercial financing interim payments. Commercial financing interim
    payments are contract financing payments made under the following
    circumstances: the contract item financed is a commercial supply or service; the
    contract price exceeds the simplified acquisition threshold; and the contracting
    officer determines that it is appropriate or customary in the commercial
    marketplace to make financing payments for the item.

    FY 2003 DoD Balance Sheet. As of September 30, 2003, DoD reported
    $18.9 billion in outstanding contract financing payments in the Other Assets
    section of the Balance Sheet. In addition, DoD reported $27.9 billion of Accounts
    Payable.




                                        1
    Amount of Contract Financing in FY 2004. The Defense Contract
    Management Agency (DCMA) was primarily responsible for administering and
    approving contract financing payments on DoD contracts, and the Defense
    Finance and Accounting Service (DFAS) was responsible for payment. In the
    first 6 months of FY 2004, the DFAS Columbus Center disbursed about
    $12.6 billion in progress payments, performance-based payments, and
    commercial financing interim payments to Defense contractors, $11.4 billion of
    which was for non-foreign military sales.


Objectives
    The primary objective of our audit was to determine whether policy and
    procedures were in place to properly record and account for contract financing
    payments. See Appendix A for a discussion of the scope and methodology, our
    review of the management control program, and prior coverage related to the
    objectives.




                                        2
           Presentation of Contract Financing on the
           DoD Consolidated Balance Sheet
           DoD was not following Federal accounting standards when recording
           transactions related to contract financing payments on the Consolidated
           Balance Sheet of the DoD Financial Statements. Specifically,

              •   DoD inappropriately recorded contract finance payments as
                  Outstanding Contract Financing Amounts in the Other Assets
                  account. DoD should have recorded the contract financing
                  payments as an in-process account such as Construction Work-in-
                  Process (WIP) and Inventory WIP; and
              •   DoD understated its Accrued Accounts Payable liability and the
                  corresponding asset in process account. They were understated
                  because DoD did not report an estimated amount of costs incurred
                  by the contractor but not paid by the Government until the
                  completed asset was delivered.

           The misclassification of assets occurred because DoD policy to report
           contract financing did not comply with Federal accounting standards. The
           understatement of accounts payable and the related asset in process
           existed at least since 1998 because DoD did not implement policy to
           comply with Federal accounting standards. As a result, the Other Assets
           account was overstated by about $18.9 billion and in-process assets (such
           as Construction WIP and Inventory WIP) were understated by about
           $22.5 billion on the FY 2003 Consolidated Balance Sheet. Additionally,
           the liabilities on the Balance Sheet were understated by about $3.6 billion.
           Unless corrected, future DoD Consolidated Balance Sheets will include
           the same misclassification of assets and understatement of assets and
           liabilities.


Prior DoD Coverage and DoD Position
    Department of Defense Inspector General (DoD IG), DoD Report No. 98-139,
    “Financial Statement Presentation of DoD Progress Payments,” May 27, 1998,
    and Report No. 98-022, “Reporting of Contract Holdbacks on the DoD Financial
    Statements,” November 17, 1997, addressed presentation of contract financing
    payments on the DoD financial statements. Specifically, Report No. 98-139
    concluded that the Military Departments and Defense Logistics Agency (DLA)
    materially misstated the $29.6 billion of progress payments reported on the
    FY 1996 DoD financial statements. Report No. 98-002 reported that the Military
    Departments and DLA financial statements did not accurately report payment
    withheld from contractors in FY 1996 and the work associated with the payments.
    As a result, assets were understated by $7.2 billion and liabilities were
    understated by $4.9 billion on the FY 1996 financial statements of the Military
    Department General Fund and the DLA Defense Business Operations Fund.



                                        3
    At the time of those audits, the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer (USD[C/CFO]) disagreed that contract finance payments
    represented assets in process and asserted that DoD does not incur a liability for
    contractor costs until the contractor delivers the item or service. The Office of the
    DoD Comptroller also stated that DoD should not recognize a liability for
    contractor costs because title does not pass to the Government until the final
    product is delivered. DoD also asserted that if the contractor does not deliver the
    product, the contractor would be liable to repay the Government for the progress
    payments made.

    In lieu of the normal audit mediation process, the USD(C/CFO) and the Office of
    the DoD IG agreed to resolution by the Office of Federal Financial Management
    within the Office of Management and Budget (OMB). On October 2, 1998, the
    Deputy Controller within that office concluded that DoD should report progress
    payments for in-process accounts as assets in accordance with the position
    advocated by the DoD IG. See Appendix B for a copy of the OMB decision.

    The USD(C/CFO) continued to disagree with the OMB Deputy Comptroller’s
    decision and has not changed its accounting policy for presenting all of the
    necessary contracting financing transactions. Additionally, in the note to the
    FY 2003 Financial Statements, the Navy discloses that it believes that Statement
    of Federal Financial Accounting Standard (SFFAS) No. 1, “Accounting for
    Selected Assets and Liabilities,” March 30, 1993, does not adequately address
    contract financing payments. We disagree that SFFAS No. 1 is not adequate
    guidance for DoD to record and present contract financing transactions.

    SFFAS No. 1 states that Accounts Payable are set up to record an entity’s liability
    for goods and services received or work in process made by a contractor for
    which payment has not been made.

Accounting for Contract Financing Payments
    Presentation of Contract Financing Payments. At the end of FY 2003, DoD
    reported $18.9 billion of contract financing payments in the Other Assets section
    of the Consolidated Balance Sheet. Table 1 shows contract financing amounts
    reported by Military Departments in FY 2003.

                    Table 1. Contract Financing Amounts Reported by
                             Military Departments in FY 2003

                                                    Amount      Reported Asset
                       Military Departments
                                                   (millions)      Account
                   Army General Fund                 $3,163.7     Other Assets
                   Army Working Capital Fund          $250.1      Other Assets
                   Navy General Fund                 $5,809.6     Other Assets
                   Air Force General Fund            $9,645.3     Other Assets
                   Total                           $18,868.7


                                            4
To determine whether the amounts shown were correct and were properly
recorded and accounted for as other assets, we judgmentally sampled 39 contract
financing payments totaling $1.4 billion made from October 1, 2003, through
March 31, 2004.

Information in the contract files showed that 36 of the 39 contract financing
payments funded assets that meet the definition of Property, Plant, and Equipment
(PP&E) or Inventory and should have been recorded in the Construction WIP or
Inventory WIP account.

The definition of PP&E is set forth in SFFAS No. 6, “Accounting for Property,
Plant, and Equipment,” June 1996. The standard defines PP&E as tangible assets
that have an estimated useful life of 2 or more years, are not intended for sale in
the ordinary course of business, and are intended to be used or available for use
by the entity. SFFAS No. 6 states that in the case of constructed PP&E, the
PP&E shall be recorded as Construction WIP until it is placed in service.

SFFAS No. 3, “Accounting for Inventory and Related Property,” October 27,
1993, defines inventory as tangible personal property that is held for sale, in the
process of production for sale, or to be consumed in the production of goods for
sale or in the provision of services for a fee.

Although not specifically stated in SFFAS No. 3, inventory in the process of
production for sale is considered WIP by the U.S. Standard General Ledger.

The majority of the contract financing payments we sampled were used for items
that met the above definitions of PP&E or inventory. These financing payments
were used for the construction of military items such as the F-18 Hornet attack
aircraft, the F-22 Raptor fighter, the C-17 Globemaster III cargo aircraft, and the
AV-8B Harrier attack aircraft. Other items such as smart bomb dispensers,
antennas, missiles, aircraft engines, and a Doppler Navigation set were also
procured using DoD financing payments.

Table 2 shows the types of items being purchased and the proper category of
those purchases according to Federal accounting standards. The 39 sample items
disbursed from October 1, 2003, to March 31, 2004, included both working
capital funds and general funds. The portions of the sample items paid out of
working capital funds would most likely be classified as Inventory WIP and those
paid out of the general funds would most likely be classified as Construction
WIP. For three sample items, sufficient information was not available to
determine whether the purchase was for PP&E or inventory. All of the contract
documentation was not readily available at DFAS Columbus or through on-line
scanned copies of the contracts. The contract data that were readily available for
two of the three sample items indicated that the contract deliverables were
Launching Canisters, Active Optical Target Detector, guide-frame spares, and an
avionics test set. The available scanned contract documents lacked the detail
needed to determine the asset account in which these items should be reported.




                                      5
                 Table 2. Classification of Contract Financing Sample Items

Sample Contract No.                   Final Purchase                   Probable Categorization
No.
1          N0001999C1226              Aircraft                           Construction WIP
2          N0002402C5410              Insufficient Information           Insufficient Information
                                      Available                          Available
3           N0002402C5103             Antenna and Airborne System        Construction WIP
4           N0002402C5410              Insufficient Information          Insufficient Information
                                      Available                          Available
5           N0002402C5312             Missiles                           Construction WIP
6           N6893601D0008004          Antenna System                     Construction WIP
7           N6833599C0167             Ammunition Loader                  Construction WIP
8           N6833598C0216             Test and Support System            Construction WIP
9           N6833503C0074             Aircraft                           Construction/Inventory WIP *
10          N6833502G31170001         Kit Development                    Insufficient Information
                                                                         Available
11          F3365702C0010             Aircraft                           Construction WIP
12          F0863501C0027             Missiles                           Construction WIP
13          F1962803C0045             Replace ADP Systems                Construction WIP
14          F3365797D00120016         Missiles                           Construction WIP
15          F3365702G40110003         Cheyenne Sensor Upgrade            Construction WIP
16          F3365796C2059              Aircraft                          Construction WIP
17          F3365701C2095              Aircraft                          Construction WIP
18          F3365702C2001              Aircraft                          Construction WIP
19          F0863503C0022              Aircraft                          Construction WIP
20          F3365701C1240             Engines                            Construction WIP
21          F0470198D00010034         Missiles                           Construction WIP
22          F3365703C2014              Aircraft                          Construction WIP
23          F3365701C0022             JPATS T-6A                         Construction WIP
24          F3365700D00230024         Aircraft                           Construction WIP
25          F3365702C0006             Engines                            Construction WIP
26          DAAH2300C0001              Aircrafts                         Construction WIP
27          DAAH2303C0164              Aircrafts                         Construction WIP
28          DAAB0702CB213              Helicopter Warning System         Construction WIP
29          DAAH0101C0034             TAIS Hardware                      Construction WIP
30          DAAH2303C0164              Night Vision Sensors              Construction WIP
31          DAAH0101C0006              Helicopter                        Construction WIP
32          DAAH2302D03140001 Aircraft Supplies                          Inventory WIP
33          DAAH2301C0280             Supplies and Transmissions         Inventory WIP
34          DAAH2301D00890004 Helicopter Upgrades                        Construction WIP
35          DAAH2302D03210001 MILSTRIP Item                              Inventory WIP
36          DAAB0700CJ012              Doppler Navigation Set            Construction/Inventory WIP *
37          DAAH2301D00480005 Aircraft                                   Construction WIP
38          DAAH2301D00480003 Aircraft                                   Construction WIP
39          DAAH2301D00480003 Aircraft                                   Construction WIP
*These sample items included both working capital funds and general funds. The portions of the
sample paid out of working capital funds would most likely be classified as Inventory WIP and those
paid out of the general funds would most likely be classified as Construction WIP.




                                          6
    Presentation of Accounts Payable and Assets in Process Related to Progress
    Payments. In addition to recording these items incorrectly, the DoD has understated its
    accrued accounts payable liability by not reporting an estimated amount of costs incurred
    by the contractor that remain unpaid until the completed asset is delivered. DoD should
    have recorded an accounts payable for the unpaid contractor costs because they represent
    future and probable cash outlays owed to Defense contractors for unpaid costs on DoD
    contracts.

    Additionally, the progress in the work made toward an end item for which the funds were
    withheld was not disclosed as an asset in the accounting records or financial statements.
    DoD did not recognize as in-process assets the amount of progress made on the contract
    end item that was not paid by the progress payment.

    The FAR Part 32.501-1, “Progress Payment Rates,” allows administrative contracting
    officers to approve up to 80 percent of a contractor’s cumulative costs for progress
    payments. The remaining 20 percent is paid when the item is delivered.

    DFAS Columbus contract payment history files contained detailed records on progress
    payment balances by contract. Based on DFAS records of all available contracts with
    progress payment balances and corresponding progress payment rates, we calculated that
    as of September 30, 2004, about $3.6 billion of unpaid measurable contractor costs
    existed.

    The DFAS personnel responsible for compiling the Military Departments accounts
    payable balances for FY 2003 stated that the reported balances did not include any
    amounts for unpaid contractor costs associated with progress billings. The DFAS
    personnel were not aware of any policy to include these amounts.

    DoD should have recognized $3.6 billion in a corresponding asset in process for the work
    performed by its contractors that were not paid for by the progress payments. See
    Appendix A for the methodology used to calculate the estimated $3.6 billion liability and
    associated asset in-process accounts that DoD should have reported.


Adequacy of DoD Policy
    The USD(C/CFO) had not implemented guidance in the DoD Financial Management
    Regulations (FMR) to report contract financing payments in accordance with Federal
    accounting standards. Additionally, the USD(C/CFO) had not implemented guidance to
    account for unpaid contractor work progress as a liability and the corresponding asset in
    progress. We believe the resistance to these changes in the past was unfounded and
    corrections to policy are needed.

    DoD Guidance on Contract Financing Payments. DoD FMR volume 6B, chapter 10,
    “Notes to the Financial Statements,” requires reporting entities to present contract
    financing payments as Other Assets on the Balance Sheet. This policy is not in
    accordance with Federal guidance, which requires Federal agencies to report these
    amounts in a Construction or Inventory WIP account. Therefore, DoD guidance on
    contract financing payments prevents DoD and the Military Departments from complying
    with the Federal accounting standards.


                                                7
The DoD policy to present contract financing payments as Other Assets also does not
meet the intent of SFFAS No. 3 or SFFAS No. 6 and needs to be changed. The Federal
accounting standards require that in the case of constructed PP&E, the PP&E shall be
recorded as Construction WIP. In addition, a mediation decision from the OMB Deputy
Controller for Office of Federal Financial Management concluded that DoD policy
should be changed. Of the 39 DoD contract financing payments that we reviewed,
36 represented production of DoD weapon system assets and should have been presented
in accordance with Federal accounting standards and reported as an asset in process
account. Specifically, DoD should implement a policy to require reporting entities to
report contract financing payments as either Construction WIP or Inventory WIP.

DoD Accounting Policy for PP&E. The American Institute of Certified Public
Accountants gives the Federal Accounting Standards Advisory Board the authority to set
Federal generally accepted accounting standards. This is accomplished by the issuance
of SFFAS. To provide more detailed instruction to DoD accounting personnel, DoD
implements the SFFAS through its FMR. The DoD policy for presenting PP&E on the
financial statements meets the intent of SFFAS No. 6 but conflicts with DoD FMR policy
for presenting contract financing payments. DoD FMR volume 4, chapter 6, “Property,
Plant, and Equipment,” August 2000, states that in the case of constructed General
Assets, the cost to construct the asset shall be recorded as construction-in-progress until
the asset is complete and available for use. This policy implements the requirements of
SFFAS No. 6 but conflicts with DoD FMR volume 6B, chapter 10 policy that requires
DoD reporting entities to present all contract financing as Other Assets.

Guidance on Reporting Unpaid Contractor Costs. SFFAS No. 5, “Accounting for
Liabilities of the Federal Government,” September 1995, states that a liability is a
recognized future outflow of resources that results when the event occurs if the future
outflow of events is measurable and probable. It also defines Accounts Payable as
amounts owed to other entities for goods and services received, progress in contract
performance, and rents due.

DoD has not established implementing policy that would ensure compliance with the
Federal requirements to report all known liabilities. DoD does not have adequate
guidance to report the liability and corresponding asset account for all of the known
progress and associated costs its contractors have incurred related to the production of
DoD assets. Progress billings represent contractor progress toward performance because
the cost data provided by the contractor provides a means of measuring paid and unpaid
progress. In contrast, the FMR volume 6B, chapter 10 policy states that DoD is not liable
for goods until the contractor delivers a satisfactory product. We consider this assertion
to be rooted in cash accounting and not in accordance with accrual accounting
requirements.

The FMR further asserts that if the contractor does not deliver a satisfactory product,
DoD is not obligated to reimburse the contractor for its costs and the contractor is liable
to repay DoD for the full amount of any contract financing provided. Although we agree
that DoD should require its contractors to deliver satisfactory products, it is probable
(more likely than not) that, in the ordinary course of business, DoD will fully pay the
remaining costs incurred by the contractor. We believe that payment is probable because
Federal regulations require the administrative contracting officer to monitor the
contractor’s use of the contract financing provided and the contractor’s financial status.
In addition, for every progress payment, a contracting officer must certify that in the


                                             8
     ordinary course of business, the work reflected has been performed; quantities and
     amounts involved are consistent with the requirements of the contract; and that there are
     no encumbrances against the property which would affect or impair the Government’s
     title.

     In addition, a liability exists because the likelihood of contractor default or contract
     termination is more the exception than the rule. For example, DFAS contract payment
     records on contract termination for the first 6 months of FY 2004 indicated that of the
     4,172 contracts that had contract financing associated with them, only 5 had any related
     termination transactions. This evidence supports our conclusion that payment of the
     remaining contractor costs associated with contract financing is at least probable.
     Therefore, it is appropriate for DoD to report a liability for costs that have been incurred
     and provided to DoD on the progress payment invoices.

     Other Support for Recording Contract Financing as In-Process Assets. The FAR
     provides that title vests to the Government when property is or should have been
     allocable or properly chargeable to this contract. Property includes parts, materials,
     inventories, and work in process. In addition, the SFFAS definition of PP&E states that a
     reporting entity should record an asset when title passes to the entity. Although we
     recognize that DoD ultimately has the legal prerogative to demand that the contractor
     return the contract financing provided, such a perspective for presenting contract
     financing payments would not be representative normal contract execution within DoD.

     Compliance with SFFAS No. 5. USD(C/CFO) personnel indicated that there are
     contracts awarded by DoD where the contractor does not request financing and the
     Department does not, in those cases, record the entire amount of the contract as a
     liability. We did not obtain information on those contracts. However, in those types of
     contracts title does not pass to the Government until payment is made and the completed
     product is delivered. When financing payments are made title passes to the Government
     for the items produced using the financing.

     The submission of the incurred costs by the contractor in a progress payment request and
     the subsequent payment of the allowable portion of the costs (according to the progress
     payment rate) results in a measurable liability to DoD. This is an accounting event
     because title of all the costs incurred has passed to the Government, and a Government
     agent has certified that work progress is in accordance with the contract, which leads to
     the probable and measurable amount that will be paid. In contrast, according to
     USD(C/CFO) personnel, some DoD contracts do not provide progress payments for
     weapon system production costs. In these contracts, a contractor has not received
     contract financing but has incurred costs, title has not passed, a Government agent has
     not certified that the contractor is performing the work in accordance with the contract,
     and DoD has no knowledge of the costs incurred. Therefore, any costs incurred on
     contracts without financing payments do not represent a liability because the eventual
     payment is not as probable, and is not measurable for DoD.


Effect on Financial Statement
     The misclassification and underreporting by DoD of contract financing payments and the
     unpaid contractor work progress will result in under and overstatements of asset and


                                                   9
liability accounts. Specifically, the Other Assets account was overstated by about
$18.9 billion and in-process assets (such as Construction WIP and Inventory WIP) were
understated by at least $22.5 billion on the FY 2003 Consolidated Balance Sheet.
Additionally, the liabilities on the Balance Sheet were understated by about $3.6 billion.
Without needed improvements, future DoD Consolidated Balances will include the same
misclassification of assets, understatement of assets and liabilities, and noncompliance
with Federal accounting standards for presenting assets and liabilities.


Recommendations, Management Comments, and Audit
  Response
       We recommend that the Office of the Secretary of Defense
       (Comptroller)/Chief Financial Officer:

              1. Revise the DoD Federal Management Regulation to require the
       Military Departments to record and account for contract financing for
       Property, Plant, and Equipment and inventory purchases as construction
       work in process and inventory work in process, respectively.

       Management Comments. The Deputy Chief Financial Officer (Comptroller)
       nonconcurred with the recommendation and stated that DoD contract financing
       policy is compliant with Federal Accounting Standards and reflects the legal and
       financial status of the Department. The Deputy Chief Financial Officer stated that
       the audit results erroneously equate the accounting practices and DoD Financial
       Management Regulation policies that relate to fixed-price construction contracts
       with contract financing payments.

       She stated that DoD properly records property obtained through fixed-price
       construction contracts as Construction WIP. The Deputy CFO also stated that
       when such assets are placed into service, the balance is transferred to PP&E. She
       disagreed that contract financing payments should be classified as Construction
       WIP or Inventory WIP. The Deputy CFO stated that contract financing payments
       do not meet the Federal Accounting Standard definitions of PP&E.

       The Deputy CFO also stated that SFFAS No. 6 allows the Department to
       recognize PP&E when the title passes to the entity or when PP&E is delivered to
       the entity. Accordingly, she stated that if contract financing payments were
       determined to fall under the SFFAS definitions of PP&E or Inventory, the DoD
       practice of recognizing the assets upon delivery is compliant with Federal
       Accounting Standards.

       Audit Response. Management comments are not responsive. We disagree that
       the current DoD contract financing accounting policy accurately reflects the legal
       and financial status of the Department. The audit shows that DoD contract
       financing payments are funding the production of PP&E and Inventory type
       assets. SFFAS No. 6 states that in the case of constructed PP&E, the PP&E shall
       be recorded as Construction WIP until it is placed in service. DoD policy should
       require that these assets be presented in the appropriate financial statement
       account and not elsewhere on the financial statements.


                                            10
We disagree that DoD should have different accounting policies for fixed-price
construction contracts versus other fixed-price contracts with financing payments.
SFFAS No. 6 makes no such distinction. In both types of contracts, the title of
the asset in process passes to DoD upon payment. In both types of contracts,
DoD is funding the production of assets that will be recorded as PP&E. The
substance of the transactions is essentially the same. DoD is providing the
contractor funding for the purchase of identifiable in-process assets.

We agree with the Deputy CFO’s interpretation of SFFAS No. 6 regarding
recording PP&E either when title passes or upon delivery of the item. However,
adopting a policy of recording contract financing related PP&E upon delivery
would be inconsistent with the DoD accounting policy for reporting fixed-price
construction contracts. DoD FMR requires that construction contracts be reported
as PP&E Construction in Process. Such a change to DoD accounting policy
would be much less representative of the financial status of DoD PP&E. We
request that the Deputy reconsider her comments and provide additional
comments on the final report.

       2. Revise the DoD Federal Management Regulation to require DoD
and the Military Departments to record and account for unpaid contractor
work in progress amounts associated with progress payments as a liability
and corresponding asset in progress.

Management Comments. The Deputy CFO nonconcurred with the
recommendation and stated that DoD policy is compliant with SFFAS No. 1
“Accounting for Selected Assets and Liabilities,” and SFFAS No.5 “Accounting
for Liabilities of the Federal Government.” The Deputy CFO stated that SFFAS
No.1 addresses only those selected liabilities that routinely recur in a normal
operation and are due within a fiscal year. She stated that SFFAS No. 5 is
applicable and defines a liability as a probable future outflow of resources as a
result of past transactions or events. She disagreed that a liability for unpaid
contractor costs exists because the past transaction or event has not occurred. She
defined the accounting event as either acceptance or delivery of the goods or
services.

The Deputy CFO also stated that the Government’s liability to pay for a product
arises only when the product is delivered by the contractor and the Government
determines that the product meets contract requirements and accepts the product.
She stated that recognizing unpaid contract financing payments as a liability
before final delivery and acceptance would not accurately reflect the legal status
of the Government’s contractual obligation, the Department’s financial status, or
compliance with Federal accounting standards.

Audit Response. Management comments are not responsive. We agree that the
disclosure requirements of SFFAS No. 1 relate to liabilities resulting from normal
operations and that those liabilities are due for payment within a fiscal year.
Unpaid contractor costs related to contract financing payments meet the
requirements of this standard. However, DoD has not established policy to record
an Accounts Payable for any amounts associated with unpaid contractor progress.
In the case of contract financing payments, we disagree that the accounting event
for recording a liability for unpaid costs occurs upon acceptance or delivery of the


                                     11
product. According to SFFAS No. 5, a liability can exist if the accounting event
has occurred and the future outflow of resources is probable and measurable. In
the case of contract financing, an accounting event has occurred prior to delivery
and acceptance because the title to the assets has passed to the Government, and a
Government agent has certified that work progress is in accordance with the
contract, and an amount to be paid is probable and measurable.

In instances such as contract financing, the accounting criteria for disclosing a
liability is different than the circumstances that establish a legal liability to make
a payment to a contractor. The DoD Office of General Council stated that a
liability to pay only exists upon delivery and acceptance. However, a reporting
entity should disclose that a financial liability exists prior to that time. The
standards for making the conclusion are based on different criteria. For financial
reporting purposes, DoD is required to disclose a liability for the unpaid
contractor costs for which DoD has accepted title, as required by SFFAS No. 1.

We disagree that the current DoD contract financing accounting policy accurately
reflects the legal status of the assets for which DoD has taken title. According to
the DoD Office of General Counsel clarification memorandum provided, DoD
takes title to the full value of the contractor work when a contract financing
payment is made. Therefore, the current policy of valuing the contractor progress
at the amount paid (versus the amount of the contractor costs), does not reflect the
financial or legal status of the DoD assets. We request that the Director
reconsider her comments and provide additional comments on the final report.




                                      12
Appendix A. Scope and Methodology
   We reviewed Federal and DoD accounting policy related to the presentation of
   contract financing payments on the financial statements, including related policy
   for presenting assets and liabilities. We also determined whether DoD adequately
   implemented U.S. generally accepted accounting principles as they relate to
   contract financing payments.

   We reviewed the FY 2003 DoD Consolidated and the Military Departments
   financial statements to determine the accounts used to present contract financing
   payments. We obtained an understanding of the accounting processes used by the
   DFAS to pay, process, post, summarize, and present contract financing payments
   on the financial statements. The Military Departments reported $18.9 billion in
   contract financing payments as Other Assets on the FY 2003 Consolidated
   Balance Sheet.

   To obtain our judgmental sample, we obtained all recorded contract financing
   payments and adjustments made by DFAS Columbus’ Mechanization of Contract
   Administration Services (MOCAS) from October 2003 through March 2004. The
   DFAS payments records included fields such as Accounting Classification
   Reference Number, transaction type (adjustment, collection, or disbursement),
   shipment number, amount, date, accounting station, and appropriation. We
   selected 39 high dollar value sample contract financing payments with shipment
   numbers starting with PBP (for performance-based payment), PPR (for progress
   payment), and CFI (for commercial finance interim).

   We obtained access to the Electronic Data Management system at DFAS
   Columbus to review scanned contracts and electronically-generated entitlement
   information to determine what Contract Line Item Numbers and Accounting
   Classification Reference Numbers were associated with each judgmental sample
   item. We obtained access to and searched the Electronic Data Access (EDA)
   system to determine the type of asset that each contract payment was financing.
   For contracts in which the EDA lacked sufficient contract information, we
   contacted the Administrative Contracting Office (ACO) to inquire about the asset
   purchased. Based on ACO-provided information, we used auditor judgment to
   determine the asset classification of these sample items (Construction WIP,
   Inventory WIP, or Expense).

   Calculation of Unpaid Contract Financing Accounts Payable and Related
   Asset Amount. To calculate the amount of unreported accounts payable and
   related asset in process, we relied on DFAS Columbus contract history data.
   DFAS provided progress payment disbursement history information as of
   September 30, 2003. DFAS was only able to provide progress payment rates for
   3,357 of 4,096 contracts with outstanding progress payments amounts as of
   September 30, 2003. We calculated $3.5 million of liability associated with these
   contracts. For the remaining 739 contracts, we used the FAR customary progress
   payment rate of 80 percent on the remaining contracts. Support for using the
   FAR rate comes from its similarity to the observed rate (84 percent) for the
   3,357 contracts. We estimated $0.1 million of liability associated with these
   contracts. To perform our calculation of estimated accounts payable and assets in


                                      13
    process, we calculated the estimated total contractor-billed amounts using
    progress payments paid to date and the corresponding progress payment rate. We
    reduced the estimated total contractor-billed amount by the progress payments
    made. The remaining amount represented the amount of accounts payable and
    associated contractor work progress that should have been reported in the DoD
    financial statements.

    This financial audit was conducted from April 2004 through February 2005. The
    audit was made in accordance with auditing standards issued by the Comptroller
    General of the United States, as implemented by the IG, DoD. We included tests
    of management controls considered necessary.

    We did not attempt to verify that the contract financing amounts reported by the
    Military Departments were accurate. The accuracy of reported contract financing
    amounts will be addressed in future DoD IG audit reports. We also did not verify
    the accuracy of the amounts provided to us by DFAS Columbus concerning the
    progress payment rates and outstanding amounts.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the MOCAS system to identify contract financing payments disbursed from
    October 1, 2003, through March 31, 2004. We also relied on MOCAS contract
    history data for progress payments and progress payment rates. Although we did
    not perform a formal reliability assessment of the computer-processed data, we
    determined that the contract number, shipping numbers, and disbursement
    amounts on the contracts and invoices selected for review generally agreed with
    the information in the computer-processed data. We did not find errors that
    would preclude use of the computer-processed data to meet the audit objectives or
    that would change the conclusions of this report.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the management controls of the Military Departments over the
    presentation of contract financing payments on the Balance Sheet. Specifically,
    we determined whether the Military Departments consistently reported contract
    financing payments, whether contract financing payments were properly
    classified on the financial statements, and whether all associated accounting
    entries were made. We also reviewed the adequacy of management’s self-
    evaluation of those controls.


                                        14
    Adequacy of Management Controls. We identified a material management
    control weakness for the Office of the USD(C/CFO) as defined by DoD
    Instruction 5010.40. Office of the USD(C/CFO) management controls were not
    adequate to ensure that contract financing payments were presented in accordance
    with Federal accounting standards including associated accounts payable
    balances. Recommendations 1 and 2, if implemented, will correct the weakness.
    A copy of the report will be provided to the senior officials responsible for
    management controls in the Office of the USD(C/CFO).

    Adequacy of Management’s Self-Evaluation. The Office of the USD(C/CFO)
    has identified the preparation of audited financial statements as an assessable unit.
    The USD(C/CFO) issued accounting policy to improve the presentation of
    contract financing payments. However, the accounting policy did not correct the
    material management control weakness because it was not in accordance with
    Federal accounting standards.


Prior Coverage
    During the last 5 years, the DoD IG issued two reports discussing presentation of
    contract financing payments on the DoD Consolidated Balance Sheet.
    Unrestricted DoD IG reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

    DoD IG Report No. 98-139, “Financial Statement Presentation of DoD Progress
    Payments,” May 27, 1998

    DoD IG Report No. 98-022, “Reporting of Contract Holdbacks on the DoD
    Financial Statements,” November 17, 1997




                                         15
Appendix B. Office of Management and Budget
Decision




                     17
18
19
20
21
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Commands
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        23
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       25
26
27
28
29
30
31
32
33
34
35
36
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
James L. Kornides
Mark Starinsky
Lisa S. Sherck
Rebecca J. Thompson
Kelly E. Prillaman
Amber M. Bell
